 Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


     U.S. DEPARTMENT OF
HEALTH AND HUMAN SERVICES MET
  MANY REQUIREMENTS OF THE
     IMPROPER PAYMENTS
 INFORMATION ACT OF 2002 BUT
  DID NOT FULLY COMPLY FOR
       FISCAL YEAR 2013
    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                  Daniel R. Levinson
                                                   Inspector General

                                                       April 2014
                                                     A-17-14-52000
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                                      EXECUTIVE SUMMARY

   The U. S. Department of Health and Human Services met many requirements of the
   Improper Payments Information Act of 2002 but did not fully comply with it for FY 2013.

WHY WE DID THIS REVIEW

The Improper Payments Elimination and Recovery Act of 2010 (IPERA; P.L. No. 111-204)
requires Offices of Inspector General (OIGs) to review and report on agencies’ annual improper
payment information included in their Agency Financial Reports (AFRs) to determine compliance
with the Improper Payments Information Act of 2002 (P.L. No. 107-300) as amended by the
IPERA as well as the Improper Payments Elimination and Recovery Improvement Act of 2012 (IPERIA;
P.L. No. 112-248). (“IPIA” will refer to this law as amended by the IPERA and the IPERIA.) The
objectives of this review were to (1) determine whether the Department of Health and Human
Services (Department) complied with the IPIA for fiscal year (FY) 2013 in accordance with related
Office of Management and Budget (OMB) guidance, (2) evaluate the accuracy and completeness
of the Department’s reporting, and (3) evaluate the Department’s performance in reducing and
recapturing improper payments. This is the third annual review of improper payments that we have
conducted.

BACKGROUND

To improve accountability of Federal agencies’ administration of funds, the IPIA requires agencies,
including the Department, to annually report to the President and Congress on the agencies’
improper payments. An improper payment is any payment that should not have been made or that
was made in an incorrect amount (either overpayments or underpayments). The Department issued
its FY 2013 AFR on December 16, 2013.

As required by OMB, agencies must report on seven key issues, which are (1) publishing an AFR
and posting it on the agency Web site, (2) conducting a program-specific risk assessment,
(3) developing improper payment estimates for programs and activities identified as risk
susceptible, (4) publishing corrective action plans, (5) establishing annual reduction targets for
those risk-susceptible programs, (6) reporting gross improper payment rates of less than 10 percent,
and (7) reporting on its efforts to recapture improper payments. In addition to assessing
compliance with the IPIA, OMB Circular A-123 states that OIG should evaluate the accuracy and
completeness of agency reporting as well as its performance in reducing and recapturing improper
payments.

WHAT WE FOUND

Although the Department did not fully comply with the IPIA, it published an AFR for 2013 and
posted that report and accompanying material required by OMB on the Department’s Web site,
conducted a program-specific risk assessment of 32 programs that were not deemed high risk by
OMB to identify those programs or activities that might have been susceptible to significant
improper payments, and reported information on its efforts to recapture improper payments.




Department Not Fully Compliant With IPERA (A-17-14-52000)                                          i
As required by the IPIA, the Department reported improper payment information for eight programs
that were deemed to be high risk by OMB. For six programs (i.e., Medicare Fee-For-Service,
Medicare Advantage, Medicare Prescription Drug Benefit, Medicaid, Foster Care, and Child Care
Development Fund), the Department reported the information required by the IPIA. However, for
two programs (i.e., Temporary Assistance for Needy Families (TANF) and Children’s Health
Insurance Program (CHIP)), the Department did not comply with one or more requirements.

The Department published corrective action plans (CAPs) for seven of eight programs that were
deemed to be high risk by OMB. The Department did not publish a CAP for TANF. The
Department cited statutory limitations that prohibit the Department from requiring the States to
participate in a TANF improper payment measurement. The Department met improper payment
reduction targets for four of six programs for which it reported reduction targets in the FY 2012
AFR. Medicare Fee-for-Service (FFS) and Medicare Prescription Drug Benefit did not meet their
improper payment targets. A target had not been established for for CHIP or TANF in the FY 2012
AFR. However, the Department expects to publish an error rate reduction target for CHIP in its FY
2014 AFR. Also, Medicare FFS reported an improper payment rate that exceeded 10 percent.

In addition to assessing the Department’s compliance with the IPIA, we evaluated the accuracy and
completeness of the Department’s reporting. We did not identify any inaccuracies or gaps in the
information reported for six programs, but for CHIP and TANF, we identified incomplete
information.

We also evaluated the Department’s performance in reducing and recapturing improper payments
and identified that the Department has achieved some success in reducing improper payment rates.
We noted that the Department reported reductions in rates for five programs for which it reported
improper payment rates. However, the Department reported increases in Medicare FFS’s and
Medicare Prescription Drug Benefit’s improper payment rates. In addition, the Department
reported increases in the percentage of improper payments identified and recaptured.

WHAT WE RECOMMEND

The Department made progress on some of our prior recommendations included in reports for
FYs 2011, 2012, and 2013. However, it still has not reported an improper payment estimate for
TANF, and we reemphasize our prior recommendation that it do so. Other recommendations are
still outstanding, such as reducing error rates to below 10 percent and publishing improper payment
target rates for CHIP. We will continue to follow up until they are resolved.

We did not identify any new issues in this report but continue to recommend that the Department
improve its compliance with the IPIA.

DEPARTMENT COMMENTS AND OUR RESPONSE

In its comments on our draft report, the Department provided information on the status of actions it
has taken in response to our previous recommendations. In addition, the Department disagreed
with our finding that it did not comply with the IPIA with respect to CHIP and requested that we
report that it had not established CHIP reduction targets because of a lack of baseline data but is on
track to report reduction targets in the FY 2014 AFR.


Department Not Fully Compliant With IPERA (A-17-14-52000)                                            ii
We appreciate the actions that the Department has taken and plans to take to ensure compliance
with IPIA and to reduce improper payments. With regard to our finding that the Department did
not report improper payment reduction targets for CHIP, we acknowledge the statutory prohibitions
against reporting improper payment estimates for FYs 2008 through 2010. We are not aware of
any exception to the IPIA requirement to publish an annual reduction target for CHIP. Taking this
action in accordance with the IPIA will focus the Department’s efforts to minimize improper
payments.




Department Not Fully Compliant With IPERA (A-17-14-52000)                                     iii
                                                      TABLE OF CONTENTS

INTRODUCTION ............................................................................................................................ 1

           Why We Did This Review .................................................................................................... 1

           Objectives ............................................................................................................................. 1

           Background ........................................................................................................................... 1

           Compliance With the Improper Payments Information Act of 2002
            and Office of Management and Budget Guidance ............................................................. 1

           Key Issues Identified in Our Prior-Year Report ................................................................... 2

           How We Conducted This Review......................................................................................... 3

FINDINGS ........................................................................................................................................ 4

           Department Compliance With the Improper Payments Information Act of 2002 ................ 5
                 Department Complied With Requirement To Publish and Post the
                   Agency Financial Report ....................................................................................... 5
                 Department Complied With Requirement To Perform Risk Assessments of
                   Department Programs ............................................................................................ 5
                 Information on Recapturing Improper Payments ..................................................... 5
                 Department Published Improper Payment Estimates for
                   Seven of Eight High-Risk Programs ..................................................................... 5
                 Corrective Action Plan Published for Seven of Eight Programs .............................. 6
                 Improper Payment Rate Reduction Targets Met for Four of the Six Programs
                   for Which the Department Reported Reduction Targets
                   in the Fiscal Year 2012 Agency Financial Report ................................................. 6
                 Gross Improper Payment Rate for Six of Seven Programs
                   Was Less Than 10 Percent .................................................................................... 7
                 Noncompliance for Fiscal Years 2011, 2012, and 2013 ........................................... 8

           Accuracy and Completeness of Information in the Agency Financial Report ..................... 9

           Performance in Reducing and Recapturing Improper Payments .......................................... 9

RECOMMENDATIONS ................................................................................................................ 10

DEPARTMENT COMMENTS ...................................................................................................... 10

OFFICE OF INSPECTOR GENERAL RESPONSE ..................................................................... 11




Department Not Fully Compliant With IPERA (A-17-14-52000)                                                                                           iv
APPENDIXES

        A: Related Office of Inspector General Reports ................................................................ 12

        B: Audit Scope and Methodology...................................................................................... 13

        C: Department Comments.................................................................................................. 14




Department Not Fully Compliant With IPERA (A-17-14-52000)                                                                         v
                                             INTRODUCTION

WHY WE DID THIS REVIEW

The Improper Payments Elimination and Recovery Act of 2010 (IPERA; P.L. No. 111-204)
requires Offices of Inspector General (OIGs) to review and report on agencies’ annual improper
payment information included in their Agency Financial Reports (AFRs) to determine compliance
with the Improper Payments Information Act of 2002 (IPIA; P.L. No. 107-300) as amended. 1

OBJECTIVES

Our objectives were to (1) determine whether the Department of Health and Human Services
(Department) complied with the IPIA for fiscal year (FY) 2013 in accordance with related Office
of Management and Budget (OMB) guidance, (2) evaluate the accuracy and completeness of the
Department’s reporting, and (3) evaluate the Department’s performance in reducing and
recapturing improper payments.

BACKGROUND

In its FY 2013 AFR, the Department reported approximately $65.3 billion in improper payments. An
improper payment is any payment that should not have been made or that was made in an incorrect
amount (either overpayments or underpayments). To improve accountability of Federal agencies’
administration of funds, the IPIA requires agencies, including the Department, to annually report
information to the President and Congress on the agencies’ improper payments. OMB Circular
A-123, Appendix C, parts I and II, and OMB Circular A-136, part II, section 5.8, provide guidance
on the implementation of the IPIA.

COMPLIANCE WITH THE IMPROPER PAYMENTS INFORMATION ACT OF 2002
AND OFFICE OF MANAGEMENT AND BUDGET GUIDANCE

To determine compliance with the IPIA and OMB guidance, an OIG should review the AFR of the
most recent FY to determine whether the agency has:

    •   published an AFR for the most recent FY and posted that report and any accompanying
        material required by OMB on its Web site,

    •   conducted a program-specific risk assessment, if required, for each program or activity to
        identify those programs or activities that may be susceptible to significant improper
        payments,

    •   published improper payment estimates for all programs and activities identified in its risk
        assessment as susceptible to significant improper payments,


1
 The IPIA has been amended by the IPERA as well as the Improper Payments Elimination and Recovery
Improvement Act of 2012 (IPERIA; P.L. No. 112-248). In this report, “IPIA” will mean the IPIA as amended by the
IPERA and the IPERIA.


Department Not Fully Compliant With IPERA (A-17-14-52000)                                                    1
    •   published programmatic corrective action plans (CAPs) in the AFR,

    •   published and met annual reduction targets for each program assessed to be at risk and
        measured for improper payments,

    •   reported a gross improper payment rate of less than 10 percent for each program or activity
        for which an improper payment estimate was obtained and published in the AFR, and

    •   reported information on its efforts to recapture improper payments.

The OIG must also evaluate the accuracy and completeness of agency reporting and evaluate
agency performance in reducing and recapturing improper payments (OMB Circular A-123,
Appendix C, part II, section A(4)).2

KEY ISSUES IDENTIFIED IN OUR PRIOR-YEAR REPORT

In March 2013, we issued a report on the Department’s compliance with the IPIA for FY 2012. In
that report, we determined that the Department did not fully comply with the IPIA. Specifically
the Department: 3

    •   did not publish an improper payment estimate for the Temporary Assistance for Needy
        Families (TANF) program, 4

    •   did not establish improper payment target rates for the Children’s Health Insurance Program
        (CHIP) or for TANF as required,

    •   did not meet the improper payment rate reduction targets for Medicare Fee-for-Service
        (FFS), Medicare Advantage, and Foster Care for FY 2012, and

    •   reported an improper payment rate of greater than 10 percent for Medicare Advantage.

In addition, the Department’s FY 2012 AFR contained inaccuracies or incomplete information for
the Child Care Development Fund (CCDF), Medicare FFS, Medicare Advantage, and Medicare
Prescription Drug Benefit (Medicare Prescription Drugs). Because TANF and CHIP did not report
all of the information required by the IPIA on the nature and extent of improper payments, we
could not assess the accuracy or completeness of TANF and CHIP data.


2
  An estimate of improper payments is not an estimate of fraud. Because the improper payment estimation process is
not designed to detect or measure the amount of fraud in programs such as Medicare, there may be fraud in a program
that is not included in the reported improper payment estimate.
3
 We have reported the noncompliance issues for TANF and CHIP in each of our reports on the Department’s
compliance with the IPIA. We initially reported the Medicare FFS noncompliance issue in our FY 2012 report.
4
 According to the Department, statutory limitations prevented it from requiring States to participate in a TANF
improper payment measurement.



Department Not Fully Compliant With IPERA (A-17-14-52000)                                                         2
We recommended that the Department address these issues. See Appendix A for a list of OIG
reports related to this topic.

HOW WE CONDUCTED THIS REVIEW

Our review covered IPIA information in “Other Information” that was reported in the
Department’s FY 2013 AFR. 5 The Department included information on the following eight
programs, which were deemed by OMB to be susceptible to significant improper payments:
Medicare FFS, Medicare Advantage, Medicare Prescription Drugs, Medicaid, CHIP, TANF,
Foster Care, and CCDF. 6

To determine whether the Department complied with the IPIA and whether it had made progress
on recommendations included in our report on the Department’s FY 2012 AFR, we:

    •   reviewed improper payment information reported in the FY 2013 AFR,

    •   obtained and analyzed information from the Department on the eight programs deemed
        susceptible to significant improper payments, and

    •   interviewed Department staff to obtain an understanding of the processes and events related
        to determining improper payments.

To evaluate the accuracy and completeness of the Department’s reporting, we reviewed the
documentation and related information provided by the Department to support the balances,
amounts, percentages, and ratios reported in the FY 2013 AFR.

To evaluate the Department’s performance in reducing and recapturing improper payments, we
reviewed documentation provided by the Department on its corrective actions to reduce improper
payments, analyzed the reported error rates, and compared the FY 2012 and FY 2013 identified
and recaptured amounts reported by the Department.

We conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

Appendix B contains the details of our audit scope and methodology.

5
  The Department issued its FY 2013 AFR on December 16, 2013. OMB Memorandum M-13-24 (September 30,
2013) directed agencies to execute an orderly shutdown of operations due to the absence of appropriations. Operations
resumed with the signing of a continuing resolution (OMB Memorandum M-14-01, dated October 17, 2013). The
suspension of Government operations delayed the issuance of the AFR by 30 days. The OIG report on compliance
with the IPIA is due 120 days after the issuance of the Department’s AFR.
6
  The Department received a waiver from OMB (dated September 6, 2013) granting relief from improper payment
reporting requirements for Head Start. However, the Department reported payment recapture information for Head
Start in the FY 2013 AFR.


Department Not Fully Compliant With IPERA (A-17-14-52000)                                                        3
                                              FINDINGS

Although the Department met many IPIA requirements, it did not fully comply with the IPIA. As
required, the Department:

    •   published an AFR for FY 2013 and posted that report and accompanying material required
        by OMB on the Department’s Web site,

    •   conducted a program-specific risk assessment of 32 programs that were not deemed high
        risk by OMB to identify those programs or activities that might have been susceptible to
        significant improper payments,

    •   reported information on its efforts to recapture improper payments, and

    •   increased the percentage of improper payments recaptured on the basis of the amount of
        improper payments identified.

However, the Department did not fully comply with the remaining IPIA requirements. Specifically
the Department:

    •   published improper payment estimates for only seven of the eight programs that OMB
        deemed to be susceptible to significant improper payments,

    •   published CAPs for only seven of the eight programs,

    •   met improper payment rate reduction targets for only four of the six programs for which
        it reported reduction targets in the FY 2012 AFR, and

    •   reported an improper payment rate for Medicare FFS that exceeded 10 percent.

In addition, we found that the Department has not been in compliance with the IPIA for
3 consecutive FYs for two programs (TANF and CHIP) and for 2 consecutive FYs for one
program (Medicare FFS).

For six programs, the Department reported accurate and complete information. However, for
CHIP and TANF, the Department’s reporting was incomplete.

In the FY 2013 AFR, the Department reported reductions in rates for five of the seven programs
for which it reported improper payment rates. However, the Department reported increases in the
Medicare FFS and Medicare Prescription Drug programs’ improper payment rates.




Department Not Fully Compliant With IPERA (A-17-14-52000)                                          4
DEPARTMENT COMPLIANCE WITH THE IMPROPER PAYMENTS
INFORMATION ACT OF 2002

Department Complied With Requirement To Publish and Post the Agency Financial Report

The Department published an AFR for FY 2013, dated December 16, 2013, and posted that report
and accompanying material on its Web site as required by OMB, in compliance with the IPIA.
The AFR included management’s discussion of the Department’s programs, the Department’s
audited financial statements, and other information.

Department Complied With Requirement To Perform Risk Assessments of Department
Programs

The Department, in compliance with the IPIA, conducted a program-specific risk assessment of 32
programs that were not deemed high risk by OMB to identify those programs or activities that
might have been susceptible to significant improper payments.

Information on Recapturing Improper Payments

The Department reported information on its actions to recapture improper payments and the results
of those actions in compliance with OMB guidance. The Department reported recoveries by the
recovery audit contractors and overpayments recaptured outside the work performed by those
contractors. For example, the Department reported that the Medicare FFS recovery auditors
recovered $3.7 billion in FY 2013, compared to $2.3 billion for FY 2012.

Department Published Improper Payment Estimates for
Seven of Eight High-Risk Programs

The Department published improper payment estimates in compliance with the IPIA for the
following seven programs: CCDF, Medicare Advantage, Medicaid, Medicare FFS, Medicare
Prescription Drugs, Foster Care, and CHIP. However, the Department did not report improper
payment estimates for TANF.

The Department stated in its FY 2013 AFR that it did not report an improper payment estimate for
TANF because it is a State-administered program and statutory limitations prohibit the Department
from requiring States to participate in a TANF improper payment measurement. The IPIA
requires Federal agencies to review all of their programs to identify those that may be susceptible
to significant improper payments. OMB has designated TANF as a Federal program with a
significant risk of improper payments. Accordingly, TANF is required to estimate improper
payments.

In our FY 2011 report, we recommended that the Department take steps to develop improper
payment estimates for CHIP and TANF. In both its FY 2012 and FY 2013 AFRs, the Department
reported an improper payment estimate for CHIP but not TANF. Because the Department did not
report an estimate of improper payment for TANF, the Department did not meet other IPIA
requirements for TANF.



Department Not Fully Compliant With IPERA (A-17-14-52000)                                       5
Corrective Action Plan Published for Seven of Eight Programs

As required by the IPIA, the Department published CAPs for seven of eight programs. The
Department did not publish a CAP for TANF because, as previously noted, estimates of the extent
of improper payments were not made. The Department stated in the FY 2013 AFR that despite
statutory limitations, it has taken actions to assist States in reducing improper payments.

Improper Payment Rate Reduction Targets Met for Four of the Six Programs for Which the
Department Reported Reduction Targets in the Fiscal Year 2012 Agency Financial Report

The Department had four programs that met their improper payment reduction targets (Medicare
Advantage, CCDF, Medicaid, and Foster Care). For example, in its FY 2012 AFR, the
Department reported an FY 2013 improper payment rate reduction target of 10.9 percent for
Medicare Advantage. As reported in the FY 2013 AFR, Medicare Advantage achieved an
improper payment rate of 9.5 percent. Also, the Department reported for the CCDF program a
gross improper payment rate of 5.9 percent, which was less than the target improper payment rate
of 9.0 percent for FY 2013.

Of the remaining four programs, two did not meet their improper payment rate reduction targets
for FY 2013 (Medicare FFS and Medicare Prescription Drugs) and two did not have target
improper payment rates for FY 2013 (TANF and CHIP). 7 For Medicare FFS, the Department’s
reported improper payment rate (10.1 percent) exceeded its target rate (8.3 percent). The
Department has reported a number of ongoing corrective actions, including some that were
implemented in FY 2012. According to Department officials, the Department is optimistic that
these efforts will lower the error rate and help it meet its targets in future reporting years. The
Department revised its Medicare FFS improper payment error rate targets to 9.9 percent for
FY 2014 and to 9.8 percent for FY 2015, and it established a target of 9.7 percent for FY 2016.

For Medicare Prescription Drugs, the Department’s reported improper payment rate (3.7 percent)
exceeded its target rate (3.1 percent). According to the Department, all of the improper payments
are related to administrative and documentation errors. The Department has revised its Medicare
Prescription Drugs improper payment error rate targets to 3.6 percent for FY 2014 and to
3.5 percent for FY 2015, and it has established a target of 3.4 percent for FY 2016.

The Department did not report an error rate reduction target for CHIP. In FY 2012, the
Department considered target rates to be not applicable to CHIP because it had not yet measured
improper payments in all 50 States and the District of Columbia. In FY 2014, according to the
Department’s FY 2013 AFR, the Department expects to publish an error rate reduction target in its
AFR after all 50 States and the District of Columbia have been measured once.




7
 The Department did not have a target improper payment rate to meet for FY 2013 because TANF did not report an
improper payment estimate in the FY 2012 AFR. CHIP plans to have a target improper payment rate starting in
FY 2014.



Department Not Fully Compliant With IPERA (A-17-14-52000)                                                    6
Table 1 summarizes the Department’s performance in meeting improper payment rate targets for
FY 2013.

                                        Table 1: Fiscal Year 2013
                                    Improper Payment Rates and Targets


                                                                Improper Payments Estimate
                                                                        (Percentage)
                                                                            FY 2013
                                                                           Reported     Met
                                                             FY 2013        (Actual)   Target
                        Program                             Target Rate       Rate      Rate
            Medicare FFS                                        8.3           10.1       No
            Medicare Advantage                                 10.9            9.5      Yes
            Medicare Prescription Drugs                         3.1            3.7       No
            Medicaid                                            6.4            5.8      Yes
            CHIP                                                 *8            7.1       *9
            Foster Care                                         6.0            5.3      Yes
                                                                  10             11
            TANF                                                *              *         *8
            CCDF                                                9.0            5.9      Yes

           Source: The FY 2013 target rate was provided by HHS, Table 1 “Improper Payment Reduction
           Outlook,” in the HHS AFR for FY 2012. The FY 2013 reported rate was provided by HHS, Table 1
           “Improper Payment Reduction Outlook,” in the HHS AFR for FY 2013.

Gross Improper Payment Rate for Six of Seven Programs Was Less Than 10 Percent

The Department reported that six of of the seven programs for which the Department reported a
gross improper payment rate in FY 2013 achieved an improper payment rate of less than
10 percent.10 Medicare FFS did not meet the goal of reporting an improper payment rate of less
than 10 percent (Table 2). The Department reported that the rate increased from 8.5 percent in FY
2012 to 10.1 percent in FY 2013. Specifically, the Department reported that Medicare FFS’s
unadjusted gross improper payment rate was 10.7 percent, but after necessary adjustments, it was
10.1 percent. The Department anticipates that the Medicare FFS CAPs will lead to significant
reductions in improper payments. However, the Department also anticipates that several

8
  Beginning with FY 2014, the Department plans to complete the baseline measurement, as well as establish and report
target rates in the AFR for CHIP, on the basis of the measurement of 50 States and the District of Columbia over a
3-year period (FYs 2012-2014) (HHS FY 2012 AFR, Table 1, note 4).
9
    We could not evaluate whether CHIP or TANF met their target rate because no target rate was established.
10
 The Department expressed no reason for not publishing a FY 2013 target rate in its FY 2012 AFR for TANF (HHS
FY 2012 AFR, Table 1).
11
   The Department stated in the FY 2013 AFR that TANF is not reporting an error rate for FY 2013 because of
statutory limitations (HHS FY 2012 AFR, Table 1, note 5).


Department Not Fully Compliant With IPERA (A-17-14-52000)                                                       7
upcoming policy changes may lead to short-term increases in improper payment rates for
certain claim types. One policy change is the face-to-face evaluation requirement for certain
claim types (e.g., durable medical equipment and home health services) that was included in
the Patient Protection and Affordable Care Act.

We analyzed the Supplemental Appendices for the FY 2013 and FY 2012 Medicare FFS improper
payment reports 12 to determine what service types had increases in projected improper payments.
We found that projected improper payments related to “lab tests—other” (non-Medicare fee
schedule), home health services, nonhospital-based hospice services, and psychoses services
showed increases of approximately $151 million, $1.9 billion, $903 million, and $341 million
respectively. In addition, for all four service types, insufficient documentation errors increased
relative to last year’s projection of improper payments.

                        Table 2: Assessment of Achieving Fiscal Year 2013
                      Gross Improper Payment Rate of Less Than 10 Percent


                                                              Improper         Gross
                                                               Payment       Improper
                                                              Estimate,       Payment
                                                                Actual,      Rate Less
                                Program                        FY 2013       Than 10 %
                    Medicare FFS                                 10.1           No
                    Medicare Advantage                            9.5           Yes
                    Medicare Prescription Drugs                   3.7           Yes
                    Medicaid                                      5.8           Yes
                    CHIP                                          7.1           Yes
                    Foster Care                                   5.3           Yes
                    TANF                                          *10           * 13
                    CCDF                                          5.9           Yes

                    Source: The FY 2013 reported rate was provided by HHS, Table 1
                    “Improper Payment Reduction Outlook,” in the HHS AFR for FY 2013.

Noncompliance for Fiscal Years 2011, 2012, and 2013

The IPERA and OMB Circular A-123 require Inspectors General to report on agency compliance
with the IPIA. If an agency is determined by an Inspector General not to be in compliance with
the IPIA for 3 consecutive FYs for the same program or activity, the head of the agency shall, not
12
  Comprehensive Error Rate Testing program, Medicare Fee-for-Service 2013 Improper Payments Report and
Appendices, issued January 27, 2014, and Comprehensive Error Rate Testing program, Medicare Fee-for-Service 2012
Improper Payments Report and Appendices, issued September 9, 2013. Last accessed on March 19, 2014, at
http://www.cms.gov/Research-Statistics-Data-and-Systems/Monitoring-Programs/CERT/CERT-Reports.html.
13
 We could not evaluate whether TANF achieved an improper payment rate of less than 10 percent because the
Department did not publish an improper payment measurement.


Department Not Fully Compliant With IPERA (A-17-14-52000)                                                   8
later than 30 days after such determination, submit to Congress either reauthorization proposals for
each program or activity that has not been in compliance for 3 or more consecutive FYs or
proposed statutory changes necessary to bring the program or activity into compliance. 14 We
identified noncompliance in TANF (no estimate of improper payments and failure to meet other
IPIA requirements) and CHIP (failure to publish improper payment reduction targets) for
3 consecutive years.

If a program or activity is determined by the Inspector General to not be in compliance for 2
consecutive fiscal years, OMB will determine if additional funding would help the agency come
into compliance and how much additional funding the agency should obligate to compliance
efforts. 15 We have identified Medicare FFS as being not in compliance (failure to meet annual
reduction targets) for FY 2012 and FY 2013. Specifically, for FYs 2012 and 2013, the Department
had improper payment target rates of 5.4 percent and 8.3 percent, respectively, and reported
improper payment rates of 8.5 percent and 10.1 percent.

ACCURACY AND COMPLETENESS OF INFORMATION IN THE
AGENCY FINANCIAL REPORT

In addition to assessing compliance with the IPIA, we reviewed the accuracy and completeness of
the Department’s reporting in accordance with OMB guidance. For six of eight programs, we did
not identify any issues with the accuracy or completeness of the information that the Department
reported. As discussed in prior sections, the Department reported incomplete information for
TANF and CHIP.

PERFORMANCE IN REDUCING AND RECAPTURING IMPROPER PAYMENTS

The Department has achieved some success in reducing improper payment rates. Specifically, the
Department reported reductions in rates for five of the seven programs (i.e., Medicare Advantage,
Medicaid, CHIP, Foster Care, and CCDF) for which it reported improper payment rates. However,
the Department reported increases in the improper payment rates of Medicare FFS from
8.5 percent in FY 2012 to 10.1 percent in FY 2013 and in Medicare Prescription Drugs from
3.1 percent in FY 2012 to 3.7 percent in FY 2013.

We compared the amounts reported by the Department for recapture auditing and for
overpayments recaptured outside of recapture audits. The Department has increased the
percentage of improper payments identified and recaptured. For example, the Department
recaptured approximately 88 percent of the identified improper payments in FY 2013, as compared
with approximately 79 percent for FY 2012. The Medicare FFS recovery auditor contractors
demonstrated the largest improvement by recovering an additional $486.7 million in FY 2013 over
FY 2012.




14
     IPERA, section 3(c)(3).
15
     IPERA, section 3(c)(2).


Department Not Fully Compliant With IPERA (A-17-14-52000)                                        9
                                         RECOMMENDATIONS

The Department made progress on some of our recommendations. However, it still has not
reported an improper payment estimate for TANF, and we reemphasize our prior recommendation
that it do so. Other recommendations are still outstanding, such as reducing error rates below
10 percent and publishing improper payment target rates for CHIP. We will continue to follow up
until they are resolved.

We did not identify any new issues in this report but continue to recommend that the Department
improve its compliance with the IPIA.

                                     DEPARTMENT COMMENTS

In its comments on our draft report, the Department provided information on the status of actions it
has taken in response to our previous recommendations. Specifically, the Department stated that
it:

     •   will work with Congress to address issues related to accountability, to address how funds
         are used, and to craft statutory changes that would allow for reliable error rate measurement
         once legislation is considered to reauthorize TANF,

     •   has taken and continues to take a number of actions to reduce error rates in all of its
         programs, and

     •   continues to set aggressive reduction targets in an effort to drive improvement in payment
         accuracy levels.

The Department disagreed with our finding that it did not comply with the IPIA with respect to
CHIP. The Department noted that it was prohibited by statute 16 from calculating or publishing an
error rate for CHIP for 2008 through 2010. 17 Also, the Department noted that under its OMB-
approved practice, the Department does not establish reduction targets for a program until a
baseline has been established. Therefore, the Department requested that we report that it has not
established CHIP reduction targets because of a lack of baseline data.

The Department also provided technical comments, which we addressed as appropriate. The
Department’s comments, excluding technical comments, are included as Appendix C.




16
 Children’s Health Insurance Program Reauthorization Act of 2009, P.L. No. 111-3, § 601(b); Medicare and
Medicaid Extenders Act of 2010, P.L. No. 111-309, § 205 (c).
17
 Error rates for FYs 2008 through 2010 would otherwise have been published in the FY 2009 through FY 2011
AFRs.


Department Not Fully Compliant With IPERA (A-17-14-52000)                                                   10
                       OFFICE OF INSPECTOR GENERAL RESPONSE

We appreciate the actions that the Department has taken and plans to take to ensure compliance
with the IPIA and to reduce improper payments. With regard to our finding that the Department
did not report improper payment reduction targets for CHIP, we acknowledge the statutory
prohibitions against reporting improper payment estimates for FYs 2008 through 2010. We are not
aware of any exception to the IPIA requirement to publish an annual reduction target for CHIP.
We continue to recommend that the Department develop and report error rate reduction targets for
CHIP in accordance with the IPIA.




Department Not Fully Compliant With IPERA (A-17-14-52000)                                   11
        APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS


                       Report Title                         Report Number      Issue Date
 U.S. Department of Health and Human Services Met
 Many Requirements of the Improper Payments
 Information Act of 2002 But Was Not Fully Compliant         A-17-13-52000    March 2013

 Medicare Claims Administration Contractors’ Error
 Rate Reduction Plans                                       OEI-09-12-00090   January 2014

 U.S. Department of Health and Human Services Did
 Not Fully Comply With Federal Requirements for
 Reporting Improper Payments                                 A-17-12-52000    March 2012
 Review of CERT [Comprehensive Error Rate Testing]
 Errors Overturned Through the Appeals Process for
 Fiscal Years 2009 and 2010                                  A-01-11-00504    March 2012

 Oversight and Evaluation of the Fiscal Year 2007
 Payment Error Rate Measurement Program                      A-06-08-00078     May 2010
 Oversight and Evaluation of the Fiscal Year 2006
 Medicaid Fee-for-Service Payment Error Rate
 Measurement Program                                         A-06-07-00114    January 2009




Department Not Fully Compliant With IPERA (A-17-14-52000)                                    12
                    APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our review covered IPIA information in “Other Information” that was reported in the
Department’s FY 2013 AFR. The Department included information on the following eight
programs, which were deemed by OMB to be susceptible to significant improper payments:
Medicare FFS, Medicare Advantage, Medicare Prescription Drugs, Medicaid, CHIP, TANF,
Foster Care, and CCDF.

We performed our fieldwork from December 2013 through February 2014.

METHODOLOGY

To determine whether the Department complied with the IPIA and whether it had made progress
on recommendations included in our report on the Department’s FY 2012 AFR, we:

    •   reviewed applicable Federal laws and OMB circulars;

    •   reviewed improper payment information reported in the FY 2013 AFR;

    •   obtained and analyzed other information from the Department on the eight programs
        deemed susceptible to significant improper payments; and

    •   interviewed Department, State, and Medicare Administrative Contractor staff to obtain an
        understanding of the processes and events related to determining improper payment rates.

To evaluate the accuracy and completeness of the Department’s reporting, we reviewed the
documentation and related information provided by the Department to support the balances,
amounts, percentages, and ratios reported in the FY 2013 AFR.

To evaluate the Department’s performance in reducing improper payments, we reviewed
documentation provided by the Department on its corrective actions to reduce improper payments
and analyzed the reported error rates.

We discussed the results of our work with the Department.

We conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.




Department Not Fully Compliant With IPERA (A-17-14-52000)                                     13
                          APPENDIX C: DEPARTMENT COMMENTS




Department Not Fully Compliant With IPERA (A-17-14-52000)   14
                                                                                            17




17
  Office of Inspector General note—Technical comments in the auditee’s response to the draft have been omitted
from the final report and all appropriate changes have been made.


Department Not Fully Compliant With IPERA (A-17-14-52000)                                                        15
